<html>
<title> - FROM DOE LOAN GUARANTEE TO BANKRUPTCY TO FBI RAID: WHAT SOLYNDRA'S EXECUTIVES KNEW</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
  FROM DOE LOAN GUARANTEE TO BANKRUPTCY TO FBI RAID: WHAT SOLYNDRA'S 
                            EXECUTIVES KNEW

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2011

                               __________

                           Serial No. 112-89


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
73-857                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ccabbca38cafb9bfb8a4a9a0bce2afa3a1e2">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         JAY INSLEE, Washington
CHARLES F. BASS, New Hampshire       TAMMY BALDWIN, Wisconsin
PHIL GINGREY, Georgia                MIKE ROSS, Arkansas
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana              Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 7_____

              Subcommittee on Oversight and Investigations

                         CLIFF STEARNS, Florida
                                 Chairman
LEE TERRY, Nebraska                  DIANA DeGETTE, Colorado
SUE WILKINS MYRICK, North Carolina     Ranking Member
JOHN SULLIVAN, Oklahoma              JANICE D. SCHAKOWSKY, Illinois
TIM MURPHY, Pennsylvania             MIKE ROSS, Arkansas
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
MARSHA BLACKBURN, Tennessee          EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         GENE GREEN, Texas
PHIL GINGREY, Georgia                DONNA M. CHRISTENSEN, Virgin 
STEVE SCALISE, Louisiana                 Islands
CORY GARDNER, Colorado               JOHN D. DINGELL, Michigan
H. MORGAN GRIFFITH, Virginia         HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     2
    Prepared statement...........................................     4
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     8
    Prepared statement...........................................    10
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    12
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    12
    Prepared statement...........................................    14
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    15
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    16
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............    17
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    17
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    18
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................    19
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    20
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    20
    Prepared statement...........................................    22
Hon. Sue Wilkins Myrick, a Representative in Congress from the 
  State of North Carolina, opening statement.....................    23
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    23
Hon. Cory Gardner, a Representative in Congress from the State of 
  Colorado, opening statement....................................    24
Hon. H. Morgan Griffith, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................    25
Hon. John Sullivan, a Representative in Congress from the State 
  of Oklahoma, opening statement.................................    25

                               Witnesses

Brian Harrison, President and Chief Executive Officer, Solyndra, 
  Inc. \1\.......................................................
W.G. Bill Stover, Senior Vice President and Chief Financial 
  Officer, Solyndra, Inc. \1\....................................

                           Submitted Material

Subcommittee exhibit binder......................................    36
Majority memo, dated September 21, 2011, submitted by Mr. Stearns    49

----------
\1\ Mr. Harrison and Mr. Stover did not present opening 
  statements.


  FROM DOE LOAN GUARANTEE TO BANKRUPTCY TO FBI RAID: WHAT SOLYNDRA'S 
                            EXECUTIVES KNEW

                              ----------                              


                       FRIDAY, SEPTEMBER 23, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
room 2123, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman of the subcommittee) presiding.
    Members present: Representatives Stearns, Terry, Sullivan, 
Murphy, Burgess, Blackburn, Myrick, Gingrey, Gardner, Griffith, 
Barton, Pompeo, Upton (ex officio), DeGette, Schakowsky, 
Markey, Green, Dingell, and Waxman (ex officio).
    Staff present: Carl Anderson, Counsel, Oversight; Jim 
Barnette, General Counsel; Sean Bonyun, Deputy Communications 
Director; Karen Christian, Deputy Chief Counsel, Oversight/
Investigations; Andy Duberstein, Deputy Press Secretary; Todd 
Harrison, Chief Counsel, Oversight/Investigations; Kirby 
Howard, Legislative Clerk; Carly McWilliams, Legislative Clerk; 
Andrew Powaleny, Press Assistant; Krista Rosenthall, Counsel to 
Chairman Emeritus; Alan Slobodin, Deputy Chief Counsel, 
Oversight; John Stone, Associate Counsel, Oversight/
Investigations; Jean Woodrow, Director, Information Technology; 
Kristin Amerling, Democratic Chief Counsel and Oversight Staff 
Director; Alvin Banks, Democratic Investigator; Phil Barnett, 
Democratic Staff Director; Stacia Cardille, Democratic Counsel; 
Karen Lightfoot, Democratic Communications Director and Senior 
Policy Advisor; and Matt Siegler, Democratic Counsel.
    Mr. Stearns. Good morning, everybody.
    The Subcommittee on Oversight and Investigations of the 
Energy and Commerce Committee will come to order.
    My colleagues, before we begin today, I would like to 
address the procedures used at this hearing. I called Ranking 
Member DeGette yesterday evening to consult with her about 
today's hearing.
    Ranking Member DeGette and I agreed to the following 
process for opening statements and questions. I will recognize 
myself and Ranking Member DeGette for 5-minute opening 
statements. Then each member of the committee will be able to 
give a 2-minute opening statement. After swearing in the 
witnesses, the majority and minority each will have 10 minutes 
to ask questions of today's witnesses. This time will be 
allotted among members who wish to ask questions at the 
discretion of the chair and the ranking member. We will start 
with 5 minutes for questions for majority members, then 5 
minutes for minority members, then repeat.
    I would like to thank the ranking member, distinguished 
member, for her support.
    And now I recognize myself for a 5-minute opening.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Good morning, everybody. We convene this hearing of the 
Subcommittee on Oversight and Investigations to examine what 
Solyndra's executives knew about the company's financial 
condition and how it represented that condition to the 
Department of Energy, the White House, and members of this 
committee.
    Just 2 years ago, after Solyndra received its $535 million 
loan guarantee and 6 months after the Department of Energy 
restructured the deal, Solyndra has laid off over a thousand 
workers, filed for bankruptcy, and has been raided by the FBI. 
Yet only 2 months ago Solyndra's CEO Brian Harrison met with me 
in the committee offices. He looked me in the eye and assured 
me that everything was just fine, and the company was on track 
to be cash-flow positive. Mr. Harrison told me and other 
members of this committee that Solyndra was continuing to make 
excellent progress, that it was meeting all its cost and 
performance milestones, and that revenues were projected to 
nearly double in 2011.
    I was hoping that Mr. Harrison would testify today and 
explain to me and to this committee how he could make those 
representations in late July about Solyndra improving prospects 
when the company was on the path to bankruptcy just 30 days 
later.
    It seems clear to me that Mr. Harrison knew or should have 
known in July that the company was going to restate its 
financial projections to reflect increasing market and pricing 
pressure on its products, resulting in decreased revenue.
    When the committee invited Mr. Harrison and Mr. Stover to 
testify at last week's hearing, Solyndra's counsel said that 
Mr. Harrison would appear voluntarily and would answer the 
committee's questions. However, Solyndra's counsel asked the 
committee to postpone their testimony by 1 week, claiming that 
Mr. Harrison and Mr. Stover were involved in active 
negotiations to potentially sell the company and that an 
earlier sale might potentially result in a better recovery for 
the taxpayer at the company's bankruptcy.
    I agreed to this request, provided that Mr. Harrison 
appeared this week and testified. In return for postponing his 
testimony by 1 week, I was provided written assurance by 
Solyndra's counsel that Mr. Harrison would answer the 
committee's questions.
    Unfortunately, we won't get those answers today. Mr. 
Harrison and Mr. Stover's counsel informed the committee 3 days 
ago that they would decline to answer the committee's questions 
and would invoke their rights under the Fifth Amendment to the 
United States Constitution. I respect the witnesses' rights 
under the Fifth Amendment, but I want to make it clear today, 
though, that this subcommittee's investigation will continue.
    We have been asking questions about this deal since 
February of this year. We will get to the bottom of why this 
loan was pushed out to a company whose liquidity issues were a 
major issue to Department of Energy staff reviewing the loan 
back in 2009 and which ultimately caused its bankruptcy. We 
will also figure out just how DOE concluded that restructuring 
the Solyndra deal positioned the U.S. taxpayer for maximum 
recovery, end quote, when documents produced to the committee 
showed that OMB staff doubted that it would prevent a Solyndra 
bankruptcy or result in greater recovery for the government. We 
are also determined to know why DOE allowed the taxpayers to be 
subordinated to the private investors during that restructuring 
in violation of the clear letter of the law.
    What we do not know is whether the Solyndra executives here 
today have something to hide. Was all the information they 
submitted to DOE accurate and complete? What did they know 
about their financial situation and when did they know it? And 
how did they represent it to others, including this committee? 
What did DOE understand about Solyndra's financial situation? 
Did DOE know what they were doing and did they properly monitor 
Solyndra and the taxpayers' money being used to prop Solyndra 
up?
    My colleagues, these are all the questions I would have 
liked to have received answers from our witnesses today. 
Congress and the American taxpayers have a right to know 
whether this loan guarantee was rushed out the door before it 
was ready for prime time, whether the administration doubled 
down on a bad bet after knowing of the company's dubious 
commercial prospects or, even worse, whether $535 million of 
taxpayers' dollars were wasted on false or incomplete 
information. We intend to get those answers.
    And that concludes my statement.
    With that, I recognize the ranking member, Ms. DeGette, for 
her opening statement.
    [The prepared statement of Mr. Stearns follows:]

    [GRAPHIC] [TIFF OMITTED] T3857.001
    
    [GRAPHIC] [TIFF OMITTED] T3857.002
    
    [GRAPHIC] [TIFF OMITTED] T3857.003
    
 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, 2 weeks ago, Ranking Member Waxman and I 
requested that this subcommittee seek testimony from Solyndra 
President and CEO Brian Harrison, so I am pleased that the 
subcommittee sought the testimony of Mr. Harrison and his 
colleague, Mr. Stover, for today's hearing.
    I respect that witnesses appearing before the committee 
have the right to invoke their constitutional rights under the 
Fifth Amendment, but I am disappointed that the executives here 
today won't be responding to questions. I believe that their 
testimony would greatly inform the subcommittee's investigation 
of the Department of Energy loan guarantee to Solyndra, and I 
hope that once those constitutional questions are resolved, 
that they will be able to return and testify voluntarily.
    Nonetheless, Mr. Chairman, I am glad that the subcommittee 
will continue to examine key questions relating to the Solyndra 
loan guarantee. As I noted in my statement at the September 
14th subcommittee hearing, it is critically important that we 
understand a number of factors: First, whether the Bush and 
Obama administrations conducted due diligence on the loan 
guarantee; whether Solyndra made accurate representations to 
the government; whether the administration sufficiently 
monitored the financial status of Solyndra, particularly as 
market forces seemed to be against the company; and finally, 
whether the government made correct decisions about 
restructuring the loan.
    But in addition to our specific concerns around this loan, 
it is also imperative that the subcommittee examine these 
issues in the broader context of how government should support 
development of our Nation's clean energy technology industry. 
The United States has an unparalleled history of innovation, 
and at the beginning of the 21st century, it would be to our 
long-term economic peril if we cede leadership to any other 
nation in clean energy technology development.
    To advance the subcommittee's understanding of these 
issues, Ranking Member Waxman and I have urged you, Mr. 
Chairman, to take several additional steps in this 
investigation. First, we have asked that the subcommittee 
convene hearings to ensure whether U.S. policies and incentives 
are adequate to ensure that U.S. manufacturers can compete in 
the global clean energy market. We have already heard testimony 
in our investigation that China's share of the solar market has 
jumped from 6 percent in 2005 to 54 percent just 6 years later. 
And we have heard that half of the 10 largest solar panel 
manufacturers are now based in China.
    At the same time, just last week, some of the country's 
business leaders, including the CEOs of General Electric and 
Xerox, stated that, quote, the Federal Government has a vital 
role to play in energy innovation and warned, quote, if the 
U.S. fails to invent new technologies and create new markets 
and new jobs, that will drive the transformation and 
revitalization of the $5 trillion global energy industry. We 
will have lost an opportunity to lead in what is arguably the 
largest and most pervasive technology sector in the world. 
Accordingly, review of the Solyndra loan guarantee should go 
hand in hand with review of the appropriate path our Nation can 
take to avoid ceding leadership of the clean energy technology 
market to China and other countries.
    Second, Mr. Waxman and I have asked Chairman Stearns to 
obtain the testimony of representatives from the two private 
equity firms, Argonaut and Madrone, which were the most 
significant investors in Solyndra. Private investors invested 
twice as much as the government in Solyndra. The subcommittee 
should understand why Solyndra attracted so much private 
capital and what representations the company made to private 
investors as well as to the government.
    I am certain the chairman sees the merits of these 
requests, Mr. Chairman, and I look forward to working together 
on these and other issues as the investigation continues.
    And I yield back the balance of my time.
    Mr. Stearns. Thank the gentlelady, and now the full 
chairman of Energy and Commerce, the distinguished gentleman 
from Michigan, Mr. Upton, is recognized for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, Mr. Chairman.
    In 1963, there was a great train robbery in England. At the 
time, I think it might have been the largest heist ever, and 
because of its cleverness, the legend continues. The take was 
2.6 million pounds; that is about $7.5 million in 1963 dollars. 
But now we have our own modern day great train robbery. But it 
appears that we have a great heist of over half a billion 
dollars and possibly even willing collaborators, maybe even co-
conspirators called the U.S. Government, who rushed out a $535 
million loan to Solyndra.
    It is a very sad commentary that we met resistance every 
step of the way as this subcommittee has tried to seek answers 
to basic questions overseeing the approval process of this 
project. We finally had to resort to a subpoena, and now the 
outright resistance of getting answers that both of you, our 
two witnesses, assured us only last week that you would 
provide.
    Let me just warn you and the other folks involved in this 
taxpayer rip-off, we are not done. No, we are not.
    In 2009, Solyndra was the very first company to receive a 
Department of Energy loan guarantee funded with stimulus 
dollars. The company was touted in statements by the President, 
the Vice President, the Secretary of Energy as a model for the 
government's investment in green technology. And now less than 
2 years later, Solyndra has filed for bankruptcy and was raided 
by the FBI.
    I understand that our two witnesses today, Mr. Harrison and 
Mr. Stover, intend to invoke their rights under the Fifth 
Amendment and will not testify. Solyndra has left taxpayers 
holding the bag for a $535 million guarantee, and we still 
can't get answers.
    Last week we learned even more troubling facts about the 
administration's review of the Solyndra guarantee. Concerns 
about the liquidity and cash flow were ignored. The financial 
model showed that the company would run out of cash by 
September 2011, which, as it turns out, it precisely did. OMB 
felt pressured to complete its review in time for a 
groundbreaking event with the Vice President. And when Solyndra 
faced default at the end of last year, the administration 
restructured the guarantee and put the taxpayers behind the 
investors, despite concerns by OMB staff that the restructuring 
would not be a better deal for the government and, frankly, in 
direct contradiction to the law. These facts clearly show that 
the committee was right to start asking questions about 
Solyndra when we opened up our investigation 7 months ago.
    The administration's actions in this case are deeply 
troubling, and so is their response to our findings. Rather 
than engage in a dialogue about their efforts to protect the 
taxpayer from the risks posed by Solyndra, they are arguing to 
the press the clean energy and DOE projects that Republicans on 
this committee have supported. They believe that this somehow 
undermines our basis for asking tough questions about Solyndra.
    According to Politico, ``Obama administration officials 
have spent the last week digging up letters, sound bites, and 
media stories from Republican lawmakers who had previously 
begged for clean energy spending in their districts.''
    First let's talk about clean energy. Yes, Republicans do 
support innovation, and we are uniform in our support of any 
solution that improves our energy security. While we may 
question whether the Federal Government is capable of selecting 
the most promising companies and technologies, we had concerns 
about the stimulus when it passed in 2009, and we have concerns 
now that it failed to deliver the jobs that were promised. This 
is not a debate about the virtues of clean energy. It is a 
serious inquiry into reckless use of taxpayer dollars on a 
company that was known to pose serious risks before a single 
dime went out the door.
    Yield back.
    [The prepared statement of Mr. Upton follows:]

    [GRAPHIC] [TIFF OMITTED] T3857.004
    
    [GRAPHIC] [TIFF OMITTED] T3857.005
    
    Mr. Stearns. The chairman yields back.
    Ms. Schakowsky, the gentlelady from Illinois, is recognized 
for 2 minutes. As I told all the members, we are trying to 
strictly enforce that 2 minutes. I would appreciate your 
support. Thank you.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. Thank you, Mr. Chairman.
    I am saddened that a company in which both the Bush and 
Obama Departments of Energy saw such promise has filed for 
bankruptcy, causing the loss of more than 1,000 high-tech jobs. 
I also seek answers from Solyndra's executives about the 
possibly misleading or incomplete assessment of the company's 
financial position and the cause and circumstances behind the 
FBI raid on Solyndra facilities and executives' homes earlier 
this month.
    And it is unfortunate that Mr. Harrison and Mr. Stover have 
elected not to testify or answer questions today so that our 
subcommittee together might have answers to those questions.
    However, I think it is important that as we work to address 
the Solyndra situation that we don't throw the baby out with 
the bath water. Last night, exploiting the Solyndra case, this 
House voted to cut the DOE loan guarantee program. This is a 
shortsighted mistake that will undermine our ability to compete 
in the global energy sector. As the demand for energy rises, 
emerging technologies will need our support to compete with 
businesses in China, whose solar industry was provided with $30 
billion in government subsidies just last year. Conceding the 
green energy race to China would be a reckless and irreversible 
decision.
    In a Politico op-ed last week, a group of leading American 
venture capitalists said that the, ``nascent clean energy 
industry needs more than venture capital to succeed.'' They 
insist that only a program like the loan guarantee program has 
the resources required to fully promote our green energy 
economy. As we move forward with our investigation of Solyndra, 
we should ensure that the loan guarantee program remains a 
priority for this Congress and our country.
    And now I yield back the remainder of my time.
    Mr. Stearns. I thank the gentlelady.
    And the chairman emeritus of the full committee and the 
distinguished gentleman from Texas is recognized for an opening 
statement for 2 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman.
    Let's set the scene. It is a sunny day in northern 
California. It should be a good day for a solar energy company, 
especially a solar energy company that has just received a 
government guaranteeing loan of over half a billion dollars, a 
solar energy company that has been paid a visit by the 
President of the United States himself, a solar energy company 
that President Obama called the true engine of economic growth 
and touted as a green energy success story, a stimulus success 
story, and a job-creating success story.
    As it turns out, that day was not a good day for the 
company. Instead, that company, after taking a half a billion 
dollars of taxpayer money, closed its doors, laid off over a 
thousand employees, and declared bankruptcy. The next week the 
FBI knocked down the company's door to secure its files.
    The question before the subcommittee today, Mr. Chairman, 
is, how does a company go from having the President of the 
United States visit it to having the FBI come in and confiscate 
its files? The American people deserve an answer to that 
question, Mr. Chairman.
    The two gentlemen who sit before the committee today told 
us informally and in meetings with the staff that they were 
ready to answer questions; they had nothing to hide. They made 
a deal with this committee to delay the date of the hearing 
with a promise that when they came they would answer our 
questions.
    Now they are going to assert their Fifth Amendment right 
and refuse to answer our questions because those questions, the 
answers to those questions might be incriminating. However, I 
am sure that the members of this subcommittee will still ask 
those questions so at least the American people, Mr. Chairman, 
know what questions should be answered.
    With that, I yield back.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC] [TIFF OMITTED] T3857.006
    
    Mr. Stearns. Thank the gentleman.
    The gentleman from California, the ranking member of the 
full committee, Mr. Waxman, is recognized for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Two weeks ago, Ranking Member DeGette and I 
requested the senior executives from Solyndra appear before our 
committee, and I am pleased that Chairman Stearns agreed and 
invited Brian Harrison, CEO, and Bill Stover, the CFO, to 
testify before us today. The attorneys for Mr. Harrison and Mr. 
Stover have indicated that both witnesses will invoke their 
constitutional rights under the Fifth Amendment. I respect that 
they have this constitutional prerogative, but I am 
disappointed they will not answer our questions.
    When Mr. Harrison was in my office in July, he said that 
Solyndra's future was bright, with sales and production 
booming, and I would like to know why he told me that in July 
and then filed for bankruptcy 1 month later. Unfortunately, I 
will not get an answer today.
    As this investigation continues, one key question is 
whether the Department of Energy made a mistake in investing in 
Solyndra. Chairman Upton and Chairman Stearns said they already 
know the answer to this question. They said last week that 
Solyndra was a ``bad bet from the beginning.''
    A lot of smart people thought otherwise. In March 2010, the 
Wall Street Journal announced a ranking of the top 10 venture-
backed clean technology companies. Solyndra was number one on 
that list. Some very successful and experienced private venture 
capitalists invested over a billion dollars in Solyndra, twice 
the support of the Federal Government. They obviously did not 
share Chairman Upton's views.
    Our next step in this investigation should be to hear from 
these investors. That is why Ranking Member DeGette and I wrote 
Chairman Stearns and Chairman Upton early this week to request 
a hearing with Argonaut Private Equity and Madrone Capital 
Partners, Solyndra's two largest private investors. They will 
be able to tell us what private investors thought about the 
company and its business prospects.
    We need to put our investigation into perspective. 
Republicans in Congress are now dancing on Solyndra's grave, 
but they seem to have a case of collective amnesia. It wasn't 
too long ago they were urging the Department of Energy to award 
loans and loan guarantees to companies in their districts.
    One Republican member of our committee, Representative 
Blackburn, welcomed the award of a $1.6 million loan to a 
Japanese company in her district. Another member, 
Representative Bass, said he believed in the subsidies received 
by Granite Reliable Power in his district. Two other members, 
Representative Bilbray and Representative Bono Mack wrote the 
Speaker earlier this year to support DOE's loan guarantee 
program. Even Chairman Upton pressed for clean energy loans in 
his State.
    Risk is an inherent component of the loan guarantee 
program. That is necessarily the case with a program designed 
to help new technologies get off the ground. The alternative is 
to simply give up on the important role that government can 
play in supporting development of these technologies.
    We need to face reality and stop denying science. Climate 
change is real, and it is caused by man. In the past year 
alone, extreme weather has caused record floods, droughts, and 
fires that have turned much of our Nation into disaster areas. 
The future will belong to the countries that recognize reality 
and invest in clean energy. China knows this and invested $30 
billion in Chinese solar manufacturers last year alone. We need 
an effective strategy to compete.
    That is why Ranking Member DeGette and I wrote the chairman 
yesterday to ask for a hearing. Unfortunately, we seem intent 
on denying the future.
    Last night, Republicans voted to block funding for clean 
vehicles, and they voted to take away funding for innovative 
renewable energy projects. That is not an economic plan for the 
future. It is a job-destroying strategy that keeps us tied to a 
fossil fuel past.
    Mr. Stearns. The gentleman yields back the balance of his 
time. We are in opening statements.
    The gentleman from Nebraska, Mr. Terry, is recognized for 2 
minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman, and this was to be an 
important hearing. As the chairman of the full committee said, 
we want clean jobs. We like clean energy. All of us want jobs 
to be created in our own districts. Some of the districts 
mentioned by Mr. Waxman have very high unemployment rates. So 
when you combine the two, it only makes sense that Members 
would encourage job growth in their own communities.
    And I think it is a tactic that is being used by the White 
House and now by members of this committee to deflect attention 
away from the real issues, and that is whether or not, the 
fundamental question, was DOE and OMB and the White House duped 
by Solyndra or did they ignore the information that was 
available to them for whatever purposes, whether it was to put 
green energy in a better light than it was currently in the 
markets, for press availability or even more onerous, for one 
of its major shareholders, Mr. Kaiser, who had 16 contacts with 
the White House, some of which were during important times of 
consideration for Solyndra's request.
    Those are all legitimate questions that we need answered, 
that could have been answered here today. So it is disturbing 
that when the taxpayers have been duped out of over $500 
million, that we are not receiving the information on their 
behalf that could resolve questions and fix the problems for 
the future.
    And I yield back.
    Mr. Stearns. The gentleman yields back.
    The gentleman from Massachusetts is recognized for a 2-
minute opening statement.

OPENING STATEMENT OF HON. EDWARD J. MARKEY, A REPRESENTATIVE IN 
        CONGRESS FROM THE COMMONWEALTH OF MASSACHUSETTS

    Mr. Markey. Last night, the Republican House passed a bill 
that would destroy the advanced technology vehicle loan program 
and destroy the renewable energy loan guarantee program and 
destroy thousands of jobs. And what was the rationale? They 
used Solyndra. Is this just a failed company that could not 
compete when faced with a 42 percent decline in the price of 
solar energy? Or was wrongdoing involved? We don't know the 
answer to that. But the Republican majority is recklessly 
exploiting this one case to advance a political agenda that is 
very clearly aimed at killing the solar, wind, and renewable 
industries. It is reckless to toss around accusations of 
illegality on the part of the Department of Energy officials 
who agreed to restructure the Solyndra loan guarantee by 
putting some private investors ahead of taxpayers in the 
reimbursement line.
    I sent Mr. Upton and Mr. Stearns a letter this morning that 
provides a bit of a history lesson. The loan guarantee program 
was created at 2:30 a.m. in this room in July of 2005 in the 
conference between the House and Senate on what would become 
the Energy Policy Act of 2005. Senator Domenici authored the 
provision largely as a way to pay for the nuclear power plants 
that Wall Street had no interest in financing. I offered an 
amendment to strike, but the amendment was opposed by the 
Republican majority, and the provision became law.
    The nuclear industry hailed the new law, but soon everyone 
started complaining. Republican members of this committee, 
along with the nuclear industry, excoriated DOE for not getting 
the loan guarantees out the door more quickly, and the nuclear 
industry said repeatedly that if DOE did not allow private 
investors to jump ahead of taxpayers in the reimbursement line, 
Wall Street wouldn't give them the money to build any new 
nuclear power plants. DOE finally acceded to the nuclear 
industry's wishes and changed the rules----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Markey. But it wasn't secret. It wasn't sudden----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Markey [continuing]. And it followed the right 
regulatory----
    Mr. Stearns. With that, I recognize the gentleman----
    Mr. Markey. We should hold hearings on the nuclear 
industry's----
    Mr. Stearns [continuing]. From Pennsylvania, Mr. Murphy, is 
recognized for an opening statement.
    Mr. Markey [continuing]. To change these rules.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman.
    In January 2009, the Department of Energy Bush 
administration credit committee unanimously rejected the 
Solyndra loan. Three weeks later, the process began again. In 
March, they said this deal is not ready for prime time, and by 
August, DOE employees warned that Solyndra model runs out of 
cash, and yet what happened next was pretty incredible.
    There are two major factors that suggest strongly the focus 
was on protecting the money of the investors and executives, 
not the taxpayers. It was an airtight scheme that trumps the 
Bernie Madoff scheme. First, Solyndra executives filed with the 
SEC in December 2009 this initial public offering, which could 
ensure them a strong financial return by being able to profit 
from stock sales. The New York Times said behind the pomp and 
pageantry of a Presidential visit, Solyndra was rotting inside, 
hemorrhaging cash so quickly that within weeks of Mr. Obama's 
visit, the company cancelled plans to offer shares to the 
public.
    Secondly, the law clearly and unequivocally states the 
taxpayers will not be subordinate to other financing in these 
loans, but the executives and investors arranged the contract 
to put themselves first in January of 2011.
    It appears you knew the Titanic was sinking and you made 
sure you got to the life boats first. I am very disappointed we 
will not get answers to this today, but the taxpayers deserve 
answers, and they deserve to get their money back.
    I yield back.
    Mr. Stearns. The gentleman yields back.
    For an opening statement, the gentleman from Texas, Mr. 
Green, is recognized for 5 minutes--2 minutes, 2 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. I thought you were 
going to give me extra time because we are kind of slow 
talkers.
    Today's hearing should be an opportunity for Solyndra to 
clear its name. However, due to the ongoing investigation and 
the witnesses exercising their constitutional right, they will 
not shed any light on the events surrounding a loan guarantee 
or the restructuring of the loan. It is their right to do so, 
but I am disappointed we will not get the information.
    Like other Members of Congress, in July, shortly after this 
issue was first raised by the subcommittee, our staff met with 
the representatives of Solyndra. During this meeting, our 
office was assured that Solyndra was solvent and well 
positioned to grow. Only days later Solyndra filed bankruptcy.
    It is clear that they were disingenuous at best. They 
misled our office and other members of this subcommittee. This 
leads me to believe that there is a good chance they similarly 
misled investors and the Federal Government throughout the loan 
guarantee process.
    What is important to recognize is no entity, even the 
Federal Government, is immune to fraud. The case of Solyndra 
should not lead anyone to believe that our country should not 
stop exploring the development of alternative energy sources, 
particularly solar. Loan guarantees need to be thoroughly 
vetted, but if a mistake is made, a fraud happens, we can't 
simply turn and run away. Wrongdoing should be thoroughly and 
vigorously investigated, and perpetrators should be punished, 
but we must continue to explore ways to derive energy from 
alternative sources.
    For instance, 90 percent of Israeli water is heated with 
solar power. Other countries are doing this, and so should we. 
If we are not aggressively pursuing these technologies, we will 
be left behind. If we lose our competitive edge, if our Nation 
ceases to be the world leader in technological development and 
innovation, the financial loss we are experiencing due to 
Solyndra will be dwarfed by our inability to compete.
    While I am shocked at the conduct of this company, and I 
welcome the investigations by this subcommittee and the 
Department of Justice, the allegations have been made and maybe 
in this case cannot be used as a pretext for abolishing Federal 
programs that have enormous potential.
    And I yield back my one second.
    Mr. Stearns. I thank the gentleman.
    And for an opening statement, Dr. Burgess is recognized for 
2 minutes.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. I thank the chairman for the recognition. I 
want to thank the witnesses for appearing today and do note 
they are here voluntarily and not under subpoena. I am 
obviously disappointed, as is every other member of the 
committee, that we will not be able to get our questions 
answered today as the assertion is that you will assert your 
privileges under the Fifth--or your rights under the Fifth 
Amendment.
    Mr. Chairman, we have been trying for months to get this 
information out of the Department of Energy and Office of 
Management and Budget, and it is a shame that this committee 
has been stonewalled. It is a shame that this committee had to 
resort to a subpoena in July of this year in order to get this 
information and that that subpoena passed on a party line vote. 
I suspect there are several members on the other side of the 
dais that would like to have that vote back in light of what we 
know.
    Yes, last night, the money for further disbursements of 
cash to these energy programs was corralled in the continuing 
resolution. I think that was a good thing. I only wish we could 
have gotten more.
    Mr. Markey, in March of 2010, at this very table, one of 
your subcommittee hearings, Cathy Zoi, an assistant secretary 
of the Department of Energy, told this committee that all of 
the money for these energy programs was obligated and out the 
door at the Department of Energy. That was 15 months ago. And 
now we learn that rapidly approaching the end of the fiscal 
year, they are trying to cram $8 billion more out the door. 
Hell, yes, we took that money back. So if DOE is going to 
continue to be chumps, we ought to at least try to corral what 
they are doing.
    I only wish we could have appropriated a little bit more 
money, invested in some crime scene tape and taken it down 
there and circled their building. I hope they will be 
forthcoming in the future, I hope Secretary Chu will be down 
here to our committee to testify. It is only the right thing to 
do, you owe it to the taxpayers, come to our committee, bring 
the documents, and tell us what you know. I yield back.
    Mr. Stearns. The gentleman yields back. The chair 
recognizes the gentleman, the distinguished gentleman, from 
Michigan, Mr. Dingell, for 2 minutes of an opening statement.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Mr. Chairman, like every other member of this 
committee, I am disappointed, and we feel that we should be 
able to ask questions of today's witnesses. If we are going to 
look into this issue, we need to get both sides of the story, 
and in all truth, I believe the witnesses today have much to 
tell us that is probably in their interest, but their behavior 
is fully within the Constitution, and like everybody else, I 
have to support and protect those rights because they were 
wisely given by great men.
    Now, having said this, I am hard put to believe there is 
wrongdoing on the part of the Department of Energy's loan 
program office. I believe that that agency has documented that 
fact over the course of 3 years and two administrations, one of 
each, Republican and Democratic. And I believe that they have 
shown that due diligence was done by the loan program office 
and by outside engineering and market consultants. And I know 
how hard it is to get loans because I have had to support on a 
number of occasions constituents of mine who had need of this 
kind of assistance.
    In any event, members of the subcommittee were assured 
earlier this year that the company was thriving and on track to 
success, and it concerns me that we may have been given 
inaccurate information. I did hope that we could hear 
Solyndra's story at some point as we went through these 
matters. How many of my colleagues on this subcommittee support 
renewable energy is very clear. Many members on both sides of 
the aisle submitted letters in support of Recovery Act funding 
projects for this district, for their districts, Republicans 
and Democrats, and I hope that we don't take the failure, for 
whatever reason, of this project to mean that all renewable 
energy projects are bad investments or that the Congress or 
that the government should not establish programs that enable 
the government to support new technology to keep this country 
competitive.
    I thank you for the time, Mr. Chairman. I yield back.
    Mr. Stearns. I thank the gentleman.
    We recognize the gentlelady from Tennessee, Mrs. Blackburn, 
for an opening statement of 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    And welcome to our witnesses. We are pleased that you are 
here. We are very disappointed that you are not going to answer 
the questions that we have on behalf of our constituents and 
the American taxpayers that want to know what happened to the 
money.
    And Mr. Harrison and Mr. Stover, I think it is important 
that you realize, this hearing is not about science or energy 
policy. It is not about previous legislation. This hearing is 
about you, the Department of Energy, and your interaction with 
the administration. There is a desire to be accountable. We 
want to be accountable to the taxpayers. We need to have the 
answers from you. There are plenty of questions to go around.
    Mr. Chairman, did Mr. Harrison plead the Fifth as he 
interacted with the White House? Did he find it necessary to 
plead the Fifth when he visited with some of my colleagues and 
said that you were on pace to triple your output? In fact, if 
we have learned anything about Mr. Harrison, it is that until 
this morning, he has had no problem talking about the company.
    In fact, it makes you wonder what you are trying to hide or 
cover up. Did your 1,100 former employees know that they were 
going to be laid off on the morning of August 31st? Did they 
know that there was going to be difficulty with the financial 
bearings of your company? Did they understand that there are 
plenty of questions that are yet to be answered?
    I think another part of this story that causes concern is 
what is going to happen with the $783 million you owe to 
creditors that trusted you.
    I yield back.
    [The prepared statement of Mrs. Blackburn follows:]

    [GRAPHIC] [TIFF OMITTED] T3857.007
    
    Mr. Stearns. The gentlelady yields back.
    There is no longer on the Democrat side, so we will move to 
the Republican side.
    The gentlelady from North Carolina, Sue Myrick, is 
recognized for an opening statement for 2 minutes.

OPENING STATEMENT OF HON. SUE WILKINS MYRICK, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF NORTH CAROLINA

    Mrs. Myrick. Thank you, Mr. Chairman, I appreciate that, 
and it goes without saying that I am, like everyone else on 
this committee, very disappointed that we are not going to get 
any answers today. We appreciate your being here, and we 
respect your Fifth Amendment rights, no problem about that.
    But I am confident that the committee will get to the 
bottom of this in the future because we want to find out 
exactly what went on and how this loan guarantee was handled. 
And also, what was the real reason for the company's eventual 
failure after the Federal Government provided support?
    I would also be very interested to hear about the financial 
controls internally or lack thereof because a September 22nd 
Washington Post article about Carol Leonnig and Joe Stephens 
cited former employees who saw Solyndra's executives burning 
through cash after receiving the Federal loan guarantee. The 
article also mentions that inventory continued to pile up in 
Solyndra's leased space at the same time they were building 
their $340 million-plus facility around the corner. Like most 
Americans, I would be very interested to know how Solyndra 
spent so much money so quickly and if the company's management 
team really believed in the financial picture that they painted 
at the same time the company was evidently spiraling toward 
ruin. I would also like to ask our witnesses if they could 
point to anything that Solyndra did that will ultimately 
benefit the American people.
    Unfortunately, these questions won't be answered this 
morning. However, as I said before, it is not the end of the 
investigation, and I know we will get these questions answered 
in due time. It is the least we can do for the taxpayers who 
have been left holding the bag on this one.
    I yield back.
    Mr. Stearns. The gentlelady yields back.
    The gentleman from Georgia, Dr. Gingrey, is recognized for 
an opening statement for 2 minutes.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, I want to thank you for calling 
today's hearing as we attempt to get answers from the 
executives of Solyndra. Unfortunately, despite assurances from 
Solyndra's executives in an email dated September 10, 2011, 
that they would testify before this subcommittee, I am 
extremely disappointed that CEO Brian Harrison and CFO W. G. 
Stover have reneged on this pledge to provide us with answers 
and instead chose to invoke their constitutional rights under 
the Fifth Amendment to avoid self-incrimination.
    Mr. Chairman, hundreds of millions of taxpayers are owed an 
explanation as to how they were swindled out of $535 million in 
loan guarantee money. My constituents in northwest Georgia 
deserve to know why it is that this company, whose financial 
outlook in August of 2009 indicated that they would be out of 
cash in September of 2011, in fact the time that they declared 
bankruptcy, and yet received a hefty loan in a rush to judgment 
about unproven technology. Yet today we hear nothing.
    Even more frustrating than the carelessness in which 
Solyndra acted after putting taxpayers on the hook for over 
half a billion dollars is the fact that these executives 
sitting before us today had the audacity to tell members of 
this subcommittee 2 months ago the merits of Solyndra, only to 
see its doors close, leaving another thousand people out of 
work.
    Now, as we all know, Solyndra is the subject of a criminal 
investigation by the FBI. Mr. Chairman, my constituents would 
like to know the answers to several questions. How did Solyndra 
manage to obtain this loan in the first place, given the shaky 
financial outlook? What interaction did Solyndra have with the 
White House during this process? How did Solyndra restructure 
its finances in February of this year and obtain Obama 
administration's approval to return $75 million to private 
investors before taxpayers were paid back? Was this a violation 
of Federal law? Mr. Chairman, these questions will be answered 
with nothing but silence, as you can see. This subcommittee 
deserves better----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Gingrey [continuing]. And quite frankly, the American 
people deserve better.
    Mr. Stearns. And the gentleman from Colorado, Mr. Gardner, 
is recognized for an opening statement for 2 minutes.

  OPENING STATEMENT OF HON. CORY GARDNER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Gardner. Thank you, Mr. Chairman.
    And I thank you for being here today. You received the full 
faith and credit of the United States. The American people 
deserve answers. What went wrong? What could have been done? 
Did the lobbyists know? Was information hidden from the 
Department of Energy? Did the Department of Energy paint a rosy 
picture, hiding from Congress? Half a billion dollars was taken 
from the American people. They won't get it back. This morning 
this Congress passed a continuing resolution, and you have 
managed to do something that few Congresses have. You have 
killed a program.
    We don't have answers, but we will continue to ask. We will 
restore the full faith and credit of this country and the 
answers that they deserve.
    Yield back.
    Mr. Stearns. The gentleman yields back, and we recognize 
the gentleman from Virginia, Mr. Griffith, for an opening 
statement 2 minutes.

OPENING STATEMENT OF HON. H. MORGAN GRIFFITH, A REPRESENTATIVE 
         IN CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Griffith. I respect your decision to invoke your 
constitutional Fifth Amendment rights. That stated, the 
American people deserve to know the answers to a lot of 
questions. After all, it is their money we are talking about.
    If I had the opportunity to ask questions which would be 
answered today, I would ask, in light of the fact the Justice 
Department got a search warrant for your records shortly after 
the unflattering emails from within the Obama administration 
were given to this committee, do you feel you have been 
unfairly targeted by the Obama administration's Justice 
Department in order to keep you from testifying here today? Or 
do you believe the Justice Department's investigation in this 
matter is a smokescreen by the administration to shield the 
administration's gross negligence in giving you and possibly 
others questionable loan guarantees in the first place? Or do 
you believe it is a smokescreen for the administration's 
decision to subordinate $75 million of taxpayer money against 
the clear meaning of the law?
    Secondly, did you or anyone at your direction speak with 
anyone, particularly legal counsel, at the Department of Energy 
in an attempt to persuade or educate them that there was a 
legal theory that would allow subordination of taxpayer loan 
guaranteed money? Also I would like to know, did you have 
knowledge of anyone else possibly speaking to, particularly 
legal counsel, at the Department of Energy in an attempt to 
persuade or educate them that there was a legal theory that 
would allow such a subordination?
    I would also have inquired whether you could affirmatively 
state that you don't have any knowledge of representatives from 
Argonaut or Madrone speaking to anyone, particularly legal 
counsel, at the Department of Energy in an attempt to persuade 
or educate them that there was a legal theory that would allow 
subordination.
    Thank you, Mr. Chairman, I yield back.
    Mr. Stearns. The gentleman yields back.
    We have completed our opening statements at this point, so 
now we will move to the witnesses.
    Mr. Sullivan is recognized for 2 minutes in an opening 
statement.

 OPENING STATEMENT OF HON. JOHN SULLIVAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Sullivan. Thank you, Mr. Chairman.
    This is a critical hearing to examine Solyndra's 
representation on its financial status to this committee and 
the Department of Energy.
    Mr. Harrison, on July 21st, you came to my office to meet 
with me, and I quote from your meeting request to my office to 
discuss Solyndra's continued success in the global marketplace. 
I guess a lot can change in 5 weeks.
    In our meeting, you lied to me about the financial health 
of your company because just 5 weeks later, your company was 
bankrupt. What happened?
    Today I want to know how your now-bankrupt company got $535 
million taxpayer-funded loan guarantee from DOE, and I also 
want to know how your chief financial officer, Mr. Stover, 
duped the Obama administration and others on the financial 
health of your company. The American people deserve answers 
because they footed the bill. Did you know when you were 
meeting with me and other members that your company would be 
bankrupt 5 weeks after your Hill visits?
    As a long-time critic of the Solyndra loan guarantee, I 
want to know what happened. Americans deserve to know their 
taxpayer dollars are being spent wisely.
    And I yield back.
    Mr. Stearns. The gentleman yields back. I think at this 
point we are complete with our opening statements. Now we will 
move to our witnesses.
    My colleagues, my understanding is that Mr. Harrison and 
Mr. Stover authorized their counsels to advise the committee 
that they will rely on their constitutional right not to 
testify at today's hearing. I believe that this privilege 
should be personally exercised before the members, as we have 
done in the past, and that is why we have requested Mr. 
Harrison and Mr. Stover's appearance today. I request that 
given the importance of their testimony, they reconsider their 
decision to invoke the Fifth Amendment--their Fifth Amendment 
rights, especially because the American people deserve answers 
about what happened to half a billion dollars of their money, 
and because Mr. Harrison met with many of us and made 
statements to us, so we think we should answer our questions--
they should answer our questions now.
    In addition, both of you and your company, Solyndra, have 
made statements that you don't know of any wrongdoing and that 
you are cooperating with the Department of Justice. If you are 
not aware of any wrongdoing, how can you plead the Fifth 
Amendment and say that answers to our questions will expose you 
to criminal liability? I ask you today, both of you, to 
reconsider.
    I am now going to place both of the witnesses under oath.
    Mr. Harrison, you are aware that the subcommittee is 
holding an investigative hearing, and in doing so, we have the 
practice of taking testimony under oath. Do you have any 
objection to being under oath during your testimony?
    Mr. Harrison. No.
    Mr. Stearns. Mr. Stover, you are aware that the 
subcommittee is holding an investigative hearing, and in doing 
so, we have the practice of taking testimony under oath. Do you 
have any objection to being under oath during your testimony?
    Mr. Stover. No.
    Mr. Stearns. The chair also advises you that under the 
Rules of the House and the rules of the committee, you are 
entitled to be advised by counsel. Do you desire to be advised 
by counsel during your testimony today?
    Mr. Harrison?
    Mr. Harrison. Yes.
    Mr. Stearns. Mr. Stover?
    Mr. Stover. Yes.
    Mr. Stearns. In that case, would you please identify your 
counsel for the record, each of you?
    Mr. Harrison, please identify your attorney by name.
    Mr. Harrison. Mr. Walt Brown.
    Mr. Stearns. Mr. Stover?
    Mr. Stover. Jan Little.
    Mr. Stearns. Thank you.
    At this time, will you both please rise and raise your 
right hand, and I will swear you in. And I need you to make 
sure your mike is on if you don't mind.
    [Witnesses sworn.]
    Mr. Stearns. Thank you, Mr. Harrison, and thank you, Mr. 
Stover.
    The chairman recognizes himself for questioning of the 
witnesses. And I should be less than 2 minutes hopefully.
    Mr. Harrison and Mr. Stover, was every document and piece 
of information you submitted to the Department of Energy and 
the White House, Office of Management and Budget, the United 
States Congress, and your investors accurate and complete to 
the best of your knowledge?
    Mr. Harrison. Mr. Chairman, I have tremendous respect for 
this subcommittee and the important oversight role that it 
plays. As much as I wish to be able to answer the members' 
questions, I have been advised by my counsel that it is the 
better course for me to assert my constitutional right to 
decline to answer questions under the Fifth Amendment. While I 
hope to have an opportunity to assist this committee's inquiry 
in the future, on the advice of my attorney, I must 
respectfully decline to answer any questions put forth to me by 
this committee.
    Mr. Stearns. Mr. Stover?
    Mr. Stover. Mr. Chairman, on the advice of my counsel, I 
must invoke the privilege afforded by the Fifth Amendment to 
the U.S. Constitution, and I respectfully decline to answer any 
questions put to me by this committee and subcommittee. I have 
great respect for the crucial oversight role that Congress 
plays in our democracy. I trust that the members of this 
subcommittee similarly have great respect for the privilege 
afforded every citizen by the Fifth Amendment.
    Mr. Stearns. Mr. Stover, knowing the financial conditions 
of the company in mid July, were you aware of Mr. Harrison 
coming to Congress and painting such a rosy picture of the 
company? Did you review all the financial information being 
presented to Members of Congress, Department of Energy, and 
OMB, and did you discuss it with Mr. Harrison?
    Mr. Stover. On the advice of my counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution, and I respectfully decline to answer any 
questions.
    Mr. Stearns. My time has expired. We will now go to the 
gentleman from Texas, Mr. Barton, who is recognized for a 
minute and a half. I am sorry, we recognize--I think what we 
are going to do is go 5 minutes on this side, and then 5 
minutes on their side. So, Mr. Barton, you are recognized for a 
minute and a half.
    Mr. Barton. Before my time starts, could I inquire of the 
chair if the witnesses were given an opportunity to give an 
opening statement? They didn't, but were they offered that?
    Mr. Stearns. No, they were not.
    Mr. Barton. They were not offered an opportunity?
    Mr. Stearns. They are certainly welcome the opportunity to 
speak today.
    Mr. Barton. I would ask unanimous consent that we give them 
the opportunity to give a statement if either of them wishes 
to.
    Ms. DeGette. I don't have an objection.
    Mr. Barton. Normally we give witnesses an opportunity to 
make a statement.
    Mr. Stearns. It is my understanding, Mr. Barton, that when 
you are taking the Fifth, there is no opportunity for opening 
statements.
    The gentlelady.
    Ms. DeGette. If the gentleman will yield, we were--the way 
this subcommittee has operated for, as you know, Mr. Chairman 
Emeritus, for the last number of years is when witnesses appear 
to take the Fifth, they generally don't give an opening 
statement, but I would certainly have no objection if either of 
these witnesses decided to give one.
    Mr. Barton. I just think we should give them that 
opportunity to show that we are fair and balanced, as they say.
    Mr. Stearns. Mr. Barton, we are told by their counsel that 
met with our counsel, they did not wish to give an opening 
statement, and that is what we are hearing from their counsel.
    Mr. Barton. Well, we were also told that they were going to 
answer questions.
    Mr. Stearns. Well, I think this is a fine point, but I 
think judging from the counsel's reaction here, they do not 
wish to give opening statements, and I think if you look at 
their nodding heads, I think that should be apparent to you 
they do not wish to give opening statements.
    Do you wish to give an opening statement?
    Mr. Barton. I wish to ask questions, Mr. Chairman.
    Mr. Stearns. Go ahead and give your--excuse me, ask your 
questions, yes.
    Mr. Barton. I want to ask Mr. Harrison if he thinks the 
American people who have invested over half a billion dollars 
deserve to know what happened to that money.
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the 
Constitution, and I respectfully decline to answer any 
questions.
    Mr. Barton. I want to ask the same question to Mr. Stover.
    Mr. Stover. On the advice of my counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution. I respectfully decline to answer any question.
    Mr. Barton. I don't understand what is self-incriminating 
about a yes or no answer as to whether the American people 
deserve to know what happened to over half a billion dollars of 
their money, but then I am not a defense lawyer, Mr. Chairman.
    I would, secondly, like to know what changed between 
January of 2009, when the Bush administration and DOE rejected 
the loan application, to March of 2009, when the Obama 
administration reversed course and approved this half a billion 
dollar loan. Mr. Harrison, would you care to answer that 
question?
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the 
Constitution of the United States, and I respectfully decline 
to answer any questions.
    Mr. Barton. I would like to ask the same question to Mr. 
Stover.
    Mr. Stover. On the advice of counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution. I respectfully decline to answer any questions.
    Mr. Barton. Again, Mr. Chairman, I am puzzled by the 
assertion of a right against self-incrimination, which the only 
obvious thing that changed is the occupant in the White House. 
And that is certainly not illegal for the American people to 
decide to put a new President in the White House.
    I have got time for one more question.
    Is it not true, Mr. Harrison, that the former CEO and other 
investors of Solyndra met frequently with officials in the 
Obama White House?
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the 
Constitution of the United States, and I respectfully decline 
to answer any questions.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Barton. I would like Mr. Stover to be given an 
opportunity to answer that question.
    Mr. Stearns. Mr. Stover, answer the question.
    Mr. Stover. On the advice of my counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution. I respectfully decline to answer the question.
    Mr. Barton. Again, Mr. Chairman, I see nothing that is 
incriminating about people going to see folks in the White 
House.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Barton. I will say this, Mr. Chairman.
    I hope on a bipartisan basis we get to the bottom of this. 
I hope our staffs look at the constitutionality of invoking a 
broad privilege when in fact there doesn't appear to be any 
reason for these gentlemen not to answer the questions of the 
subcommittee.
    Mr. Stearns. I thank the gentleman.
    And the gentleman from Nebraska is recognized for 1 minute.
    Mr. Terry. Thank you, Mr. Chairman.
    To Mr. Harrison and Mr. Stover, did you or someone on 
Solyndra's behalf discuss with investor Mr. Kaiser of the 
perilous financial position before February 23, 2011, when the 
DOE and OMB agreed to subordinate the United States' position 
to recover funds in a bankruptcy to investors like Mr. Kaiser?
    Mr. Harrison.
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the United 
States Constitution, and I respectfully decline to answer any 
questions.
    Mr. Terry. Mr. Stover.
    Mr. Stover. On the advice of my counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution. I respectfully decline to answer the question.
    Mr. Terry. Yield back.
    Mr. Stearns. The gentleman yields back.
    The gentlelady, the ranking member, is recognized for 5 
minutes.
    Ms. DeGette. Gentlemen, based on the answers that you have 
given to the other members of this committee, Mr. Harrison, I 
would like to ask you first, it is my understanding that upon 
the advice of counsel, you intend to exercise your Fifth 
Amendment right to not answer any questions on any subject put 
to you by this committee today. Is that correct?
    Mr. Harrison. Yes.
    Ms. DeGette. Mr. Stover, I am going to ask you the same 
question. Based on your responses to the questions asked to you 
by the other members of this committee, it is your intention, 
based on the advice of your counsel, that you do not intend to 
answer any questions based on exercise of your Fifth Amendment 
right. Is that correct?
    Mr. Stover. Yes.
    Ms. DeGette. Both of you gentlemen, I will just say these 
are important constitutional rights that we all treasure. And 
while we are frustrated today, particularly because you told a 
number of us in August that the company was strong, that it was 
doing well, and this was only 5 weeks before the bankruptcy--we 
would like to get to the bottom of that--we have the utmost 
respect for the United States Constitution.
    And so, therefore, based on that, I will decline to ask you 
any further questions today.
    However, Mr. Chairman, as I said in my opening statement, I 
would be hopeful that these witnesses, once their legal issues 
are cleared up and based upon the advice of their counsel, they 
will voluntarily come back and answer all of the questions put 
to them by both sides of this committee.
    With that, Mr. Chairman, I will just ask the other members 
on my side if they have any questions for these witnesses at 
this time. OK.
    Mr. Chairman, in that case, we will yield back the first 5 
minutes and reserve our second 5 minutes.
    Mr. Stearns. All right. I understand then you are yielding 
back you're a little over 3 minutes, and you will get another 5 
minutes.
    At this point, we will go to our side, and recognize for 1 
minute the gentleman from Pennsylvania, Mr. Murphy, for 1 
minute.
    Mr. Murphy. Thank you, Mr. Chairman.
    To both witnesses, in this question, I am not asking you or 
compelling you to be a witness against yourself, nor am I 
depriving you of life, liberty or property without due process 
of law. This question is not of a criminal basis or anything 
else, but it is important. What is your plan to pay back the 
taxpayers the $535 million you owe them, and when will you pay 
it back?
    Mr. Harrison.
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the United 
States Constitution, and I respectfully decline to answer any 
questions.
    Mr. Murphy. Mr. Stover.
    Mr. Stover. On the advice of my counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution. I respectfully decline to answer any questions.
    Mr. Stearns. I thank the gentleman.
    And now we recognize Dr. Burgess, the gentleman from Texas, 
for 1 minute.
    Mr. Burgess. Thank you, Mr. Chairman.
    Again, thank gentlemen for being here.
    A question for both of you, Mr. Harrison and Mr. Stover. In 
today's New York Times article about this problem, 
administration officials lay blame for Solyndra's problems on 
part of the global collapse. Some lawmakers on Capitol Hill 
question whether the firm's executives have engaged in a 
coverup of their precarious financial condition. An aide to a 
top White House official, Valerie Jarrett, was met with three 
times to push for loans. Would you be willing to provide to 
this committee communications between yourselves or your senior 
executives with members of the West Wing of the White House, 
specifically Ms. Jarrett, Carol Browner, and Rahm Emanuel, or 
their staffs?
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the United 
States Constitution, and I respectfully decline to answer any 
questions.
    Mr. Burgess. Mr. Stover, same question.
    Mr. Stover. On the advice of my counsel, I invoke the 
privilege afforded by the Fifth Amendment to the U.S. 
Constitution. I respectfully decline to answer any questions.
    Mr. Stearns. The gentleman's time has expired.
    The gentlelady from Tennessee is recognized for 1 minute.
    Mrs. Blackburn. Thank you, Mr. Chairman.
    And to both Mr. Harrison and Mr. Stover, what we would like 
to know is, who was the first in your company to realize that 
you were not going to be profitable? And when you became aware, 
was this discussed at a board meeting? And were DOE staff 
members present? Were White House employees or administration 
appointees present for such board meetings? And prior to your 
bankruptcy filing and your awareness of your financial straits, 
did you issue bonuses to your senior management, your 
leadership team, or your board? And was this discussed as an 
agenda item in a board meeting?
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the United 
States Constitution, and I respectfully decline to answer any 
questions.
    Mrs. Blackburn. Mr. Stover?
    Mr. Stover. On advice of my counsel, I invoke the privilege 
afforded by the Fifth Amendment to the U.S. Constitution. I 
respectfully decline to answer the question.
    Mrs. Blackburn. Yield back.
    Mr. Stearns. The gentlelady yields back.
    The gentleman from Virginia, Mr. Griffith, is recognized 
for 1 minute.
    Mr. Griffith. Thank you, Mr. Chairman.
    Gentlemen, I would like to know what role you all played in 
the subordination and whether or not your company or agents of 
your company came up with the legal theory that allowed 
subordination, in direct conflict with what the statute passed 
by this Congress says. So if each of you could answer that, I 
would appreciate it.
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the U.S. 
Constitution, and I respectfully decline to answer any 
questions.
    Mr. Stover. On advice of my counsel, I invoke the privilege 
afforded by the Fifth Amendment to the U.S. Constitution. I 
respectfully decline to answer the question.
    Mr. Griffith. Thank you, Mr. Chairman. I yield back.
    Mr. Stearns. Yield back. All right.
    When I did my questions, we had 1 minute left on our side.
    And I will ask this question for Mr. Harrison. In relation 
to Solyndra's February 2011 restructuring agreement with DOE, 
did anyone from DOE or OMB ever once discuss with you the issue 
that subordinating taxpayers to Solyndra's primary investors 
was a violation of the law?
    Mr. Harrison?
    Mr. Harrison. On the advice of my counsel, I invoke the 
privilege afforded to me by the Fifth Amendment of the United 
States Constitution, and I respectfully decline to answer any 
questions.
    Mr. Stearns. All right. We have completed our questions on 
this side, and we recognize the minority for 5 minutes.
    The ranking member, Mr. Waxman, is recognized for 5 
minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    The chairman could have easily have asked a few questions 
to ascertain whether the Fifth Amendment was going to be 
asserted. That is consistent with other situations in which we 
faced witnesses invoking their Fifth Amendment rights.
    But what we have instead heard today is a line of questions 
that seem designed to create catchy sound bites rather than 
establish a clear record regarding the witnesses' intent to 
assert their constitutional rights. And these questions 
constitute witness badgering that is both unseemly and 
inconsistent with a long line of precedent under which courts 
have recognized that protections of the Fifth Amendment would 
be meaningless if prosecutors could require criminal defendants 
to repeatedly assert their privilege in the face of 
incriminating questions.
    According to a Supreme Court ruling, it is considered 
prosecutorial misconduct when the government calls witnesses in 
a conscious and flagrant attempt to build its case out of 
inferences arising from the use of testimonial privilege. And a 
Federal appeals court has written that misconduct may yet arise 
if the prosecution continues to question a witness once her 
consistent refusal, legitimate or otherwise, has become 
apparent.
    So I just want to take this moment to assert the fact that 
I think it is unseemly and inappropriate for members to be 
asking questions that we know you will not answer. You do have 
a privilege under the U.S. Constitution not to give us 
testimony.
    Should you answer any of these questions, you may well then 
have waived your rights. So, therefore, it seems to me when 
members ask questions, like, when are you going to pay back the 
money, when did you tell the White House this information, when 
did you tell your board about it, when did you subordinate the 
loans from others, that, to me, is an improper line of 
questioning. They are sound bites. They are attempts not to get 
real answers. I think our committee is better than this.
    This is an important inquiry. We must find out what 
happened to ensure that similar companies do not suffer the 
same fate. And let's not put our desire for media attention 
above our duty to conduct fair and balanced investigations into 
matters of national importance.
    I yield back the time.
    Mr. Barton. Would the distinguished former chairman yield 
for a question to himself?
    Mr. Waxman. Yes, certainly. I will not take the Fifth 
Amendment.
    Mr. Barton. OK. Good. I was told that you appeared on the 
Today Show this morning and said that the committee deserved to 
have the right to ask questions and that you wanted to ask 
questions. Was I told that erroneously?
    Mr. Waxman. You were told that erroneously. I did not 
appear on the Today Show. I came to this hearing directly from 
home. But I have told the press, and I have told everyone else 
that has asked me that I--in fact, I requested these witnesses 
be brought to our committee because I do have questions I would 
like to ask them. And I think we are entitled to get answers to 
these questions.
    But we do have the Constitution of the United States. And 
there may be other ways we can elicit some of the information. 
And I am willing to work--excuse me, it is my time.
    Mr. Barton. It is your time.
    Mr. Waxman. I am willing to work with the chairman of the 
committee and the members of this committee to pursue other 
ways to get the information.
    But if they have asserted the Fifth Amendment, there is 
nothing else we can do. And to badger them with questions that 
are simply sound bites for the press does not strike me as a 
fair way, or a balanced way, for the committee to conduct its 
business.
    Mr. Stearns. The gentleman yields back the balance of his 
time?
    Mr. Waxman. I do.
    Mr. Stearns. I would point out to the ranking member that 
this format today was agreed to by your side, the ranking 
member. Ms. DeGette and I both----
    Ms. DeGette. If the gentleman will yield----
    Mr. Stearns. Sure.
    Ms. DeGette [continuing]. Just because I agreed to the 
format doesn't mean I agreed to the witnesses being badgered by 
sound bite questions.
    Mr. Stearns. No, no, I understand. But I am just saying, 
the format we did. I just point that out. Let me move to close 
here.
    Mr. Harrison, will you invoke your Fifth Amendment rights 
in response to all questions here today?
    Mr. Harrison. Yes.
    Mr. Stearns. Then you are excused from the witness table at 
this time, but I advise you that you remain subject to the 
process of the committee, and that if the committee's needs are 
such, then we may recall you. You may leave.
    Mr. Stover, let me be clear, Mr. Stover, are you refusing 
to answer the questions on the basis of the protections 
afforded to you under the Fifth Amendment of the Constitution? 
Yes or no?
    Mr. Stover. Yes.
    Mr. Stearns. Can the press step down a little bit so we can 
see each other? Do you want me to repeat the question for you? 
Let me be clear, are you refusing to answer the questions on 
the basis of the protections afforded to you under the Fifth 
Amendment to the United States Constitution?
    Mr. Stover. Yes.
    Mr. Stearns. Mr. Stover, will you invoke your Fifth 
Amendment rights in response to all of the questions here 
today?
    Mr. Stover. Yes.
    Mr. Stearns. Then you are excused from the witness table at 
this time, but I advise you that you remain subject to the 
process of the committee, and that if the committee's need is 
such, then we may recall you.
    And with that, my colleagues, I ask unanimous consent to 
enter the document binder and majority supplemental memo.
    Ms. DeGette. No objection.
    Mr. Stearns. No objection.
    [The information appears at the conclusion of the hearing.]
    I thank the members for coming today and for the questions. 
I am sorry that Solyndra executives were unable to provide any 
answers. Nonetheless, the committee's investigation will 
continue to go forward.
    The committee sent three document requests this week, one 
to the Department of Energy seeking their communications with 
the White House on Solyndra, and two to Solyndra's investors, 
Argonaut and Madrone. We are continuing to get documents from 
the Department of Energy and the White House about their 
involvement in the guarantee. We will get to the bottom of what 
the administration understood about Solyndra's financial 
position and why they continued to believe Solyndra was a good 
bet for $535 million in taxpayers' money, even though DOE and 
OMB staff raised repeated concerns during their reviews about 
the very same financial problems that resulted in Solyndra's 
bankruptcy 2 years later.
    We will also press forward in trying to understand the 
political and time pressures that may have pushed this loan out 
the door before it was ready for prime time. And despite Mr. 
Harrison's and Mr. Stover's inability to answer questions 
today, we will determine whether Solyndra played any part in 
the government's failure to accurately assess the risks this 
deal presented to the government and the United States 
taxpayers. This hearing----
    Ms. DeGette. Mr. Chairman?
    Mr. Stearns. Yes.
    Ms. DeGette. If you will yield.
    Mr. Stearns. I will yield.
    Ms. DeGette. The chairman has stated about the continuing 
document requests that are outstanding. I am wondering if the 
chairman has reviewed the request that Mr. Waxman and I have 
made about having general hearings about our policies and 
incentives about whether U.S. manufacturers can compete in the 
global clean energy market, and also the request that Mr. 
Waxman and I had made to obtain the testimony of the 
representatives of Argonaut and Madrone, the two private equity 
companies that invested in Solyndra, so we can get a more clear 
picture from that angle.
    Mr. Stearns. We are taking both your suggestions under 
advisement. We think they are very good suggestions.
    Ms. DeGette. Thank you.
    Mr. Stearns. With that, the hearing is now adjourned.
    [Whereupon, at 10:15 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T3857.008
    
    [GRAPHIC] [TIFF OMITTED] T3857.009
    
    [GRAPHIC] [TIFF OMITTED] T3857.010
    
    [GRAPHIC] [TIFF OMITTED] T3857.011
    
    [GRAPHIC] [TIFF OMITTED] T3857.012
    
    [GRAPHIC] [TIFF OMITTED] T3857.013
    
    [GRAPHIC] [TIFF OMITTED] T3857.014
    
    [GRAPHIC] [TIFF OMITTED] T3857.015
    
    [GRAPHIC] [TIFF OMITTED] T3857.016
    
    [GRAPHIC] [TIFF OMITTED] T3857.017
    
    [GRAPHIC] [TIFF OMITTED] T3857.018
    
    [GRAPHIC] [TIFF OMITTED] T3857.019
    
    [GRAPHIC] [TIFF OMITTED] T3857.020
    
    [GRAPHIC] [TIFF OMITTED] T3857.021
    
    [GRAPHIC] [TIFF OMITTED] T3857.022
    

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
